                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                               /              CLOSEOUT MEMORANDUM
                                                         "



Case Number: A09030023                                                                         , Page 1 of 1



         A proactive review resulted in an allegation ofplagiarized text within a funded NSF proposal. It was
         later found that this subject l is currently under'investigation for a similar allegation. Therefore, the
         evidence associated with this case will be integrated into the previously-opened case.

         Accordingly, this case is closed.




NSF DIG Fonn 2 (11102)
